OFFICE OF INSPECTOR GENERAL
   for the Millennium Challenge Corporation



AUDIT OF THE MILLENNIUM
CHALLENGE
CORPORATION’S CONTRACT
AWARD PROCESS


AUDIT REPORT NO. M-000-06-001-P
October 11, 2005




WASHINGTON, DC
Office of Inspector General
    for the Millennium Challenge Corporation


October 11, 2005

MEMORANDUM

TO:                  Acting Vice President for Administration and Finance, Jonathan O. Bloom

FROM:                Assistant Inspector General for the Millennium Challenge Corporation,
                     John Phee /s/

SUBJECT:             Audit of the Millennium Challenge Corporation’s Contract Award Process
                     (Report No. M-000-06-001-P)

This memorandum transmits our final report on the subject audit. In finalizing this report,
we considered your comments on our draft report and have included those comments in
their entirety as Appendix II in this report.

This report contains nine procedural recommendations to help improve the Millennium
Challenge Corporation’s (MCC) contract award process. Based on your written
comments and supporting documentation provided, we consider that final action has
been taken on one of the nine recommendations. For the remaining eight
recommendations, we consider that a management decision has been reached on each
recommendation. Final action for these recommendations must be determined by MCC,
and we ask that we be notified of MCC’s actions.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ......................................................................................................... 1

Background ...................................................................................................................... 2

Audit Objective .................................................................................................................... 2

Audit Findings ................................................................................................................... 3

Has the Millennium Challenge
Corporation complied with
applicable laws and regulations in
awarding its contracts? ....................................................................................................... 3

     Applicability of Federal procurement
     regulations to MCC ....................................................................................................... 3

     MCC not in compliance with Small
     Business Act ................................................................................................................. 4

     Non-compliance with Federal
     Procurement Data System ............................................................................................ 7

     Inadequate justifications for sole source
     procurements ................................................................................................................ 8

     Inappropriate actions by non-procurement
     officials .......................................................................................................................... 10

     MCC needs a policy on personal services
     contractors .................................................................................................................... 13

     No assurance non-citizens eligible to work
     in the U.S. ..................................................................................................................... 14


Evaluation of Management Comments ........................................................................... 16

Appendix I – Scope and Methodology ............................................................................ 18

Appendix II – Management Comments ........................................................................... 19
SUMMARY OF RESULTS
The Assistant Inspector General for the Millennium Challenge Corporation (MCC)
conducted this audit to determine if MCC complied with applicable laws and regulations
in awarding its contracts. (See pages 2 and 3.)

The audit concluded that MCC has followed many of the requirements of procurement
laws and regulations including parts or sections of the Federal Acquisition Regulation
(FAR) and in its first eighteen months of operation has established a fully functioning
procurement activity that has made the numerous awards expected for a new Federal
entity. Initially, MCC officials believed that Federal procurement requirements did not
apply to MCC and specifically claimed an exemption from following FAR Parts 4 and 19
that implement the Small Business Act and the Federal Procurement Data System.
During our audit fieldwork, MCC officials stated that they had been following the FAR
requirements regardless of their applicability. However, subsequent to the completion of
our audit fieldwork, MCC advised us that there was misperception among some MCC
staff that MCC was following the FAR voluntarily but was not legally required to do so.
In response to our recommendation, MCC stated that it would issue a memorandum to
its staff emphasizing that the FAR applies to all MCC domestic procurement activities as
a matter of law and not by choice. Other problem areas as well as areas for suggested
improvement involving the procurement function include:

   •   Justifications for several sole source procurements were inadequate, overstated,
       and insufficiently documented. (See pages 8 to 10.)

   •   Non-procurement personnel either did not follow procurement regulations or their
       actions created the appearance of partiality. (See pages 10 to 12.)

   •   Policies and procedures regarding the use of personal services contractors have
       not yet been established. (See pages 13 to 14.)

   •   A non-citizen was allowed to work in MCC headquarters without MCC ensuring
       the individual had eligibility to work in the U.S. (See pages 14 to 15.)

The report contains nine audit recommendations to address the problem areas and
areas for suggested improvement. The recommendations for MCC include establishing
a small business procurement preference program and annual procurement preference
goals, establishing policies on preparing supporting documentation for sole source
procurements, incorporating additional policies into training classes for non-procurement
personnel, and establishing a policy on the use of personal services contractors.




                                                                                       1
BACKGROUND
The Millennium Challenge Corporation (MCC) was established in January 2004 to
further global development by promoting economic growth, eliminating extreme poverty,
and strengthening good governance, economic freedom, and investments in people.1
Since its inception, the MCC has dedicated its resources to establishing its operations
and has focused on developing the infrastructure it needed to conduct business.

In its first year of operations, MCC’s procurement function was staffed primarily with a
series of temporary contractor employees under the direction of a contracting officer. As
of June 30, 2005, MCC’s Acquisitions Office included four full-time direct hire contracting
officers and specialists and one personal services contractor. In addition, until March
31, 2005, MCC had an agreement with the U.S. Department of Interior’s National
Business Center to provide assistance with award solicitations and other procurement
activities.

MCC’s Acquisitions Office has the responsibility for the procurement of all supplies and
services for the various program offices of MCC. From MCC’s inception until May 10,
2005, MCC made approximately 204 awards including contracts, purchase orders,
agreements with other Federal agencies, and blanket purchase orders. Many of these
awards were for smaller purchases as small as a $30 newspaper subscription but also
included awards exceeding $1 million.

AUDIT OBJECTIVE
The Assistant Inspector General for the Millennium Challenge Corporation conducted
this audit as a part of its fiscal year 2005 audit plan. The objective of this audit was to
answer the following question:

•   Has the Millennium Challenge Corporation complied with applicable laws and
    regulations in awarding its contracts?

Appendix I contains a discussion of the audit’s scope and methodology.




1
 The Millennium Challenge Act of 2003 (Public Law 108-199, Part D, Title VI), established the
Millennium Challenge Corporation in the Executive Branch as the corporation responsible for
carrying out the Millennium Challenge Act of 2003. The Millennium Challenge Corporation was
designated a government corporation as defined in section 103 of title 5, United States Code.



                                                                                           2
AUDIT FINDINGS
The Millennium Challenge Corporation (MCC) has complied with many of the
requirements of procurement laws and regulations in awarding its contracts. However,
during our audit fieldwork, MCC officials had stated that these requirements did not
apply to MCC. Specifically, MCC was not following sections of the Federal Acquisition
Regulation (FAR) including FAR Parts 4 and 19. These sections implement the Small
Business Act and the Federal Procurement Data System. Subsequent to the completion
of our audit fieldwork, MCC officials advised us that MCC is subject to the requirements
of the FAR and that they will advise its staff accordingly.

MCC has made significant progress in its contract award process. In its first eighteen
months of operation, MCC established a fully functioning procurement activity that has
made the numerous awards expected for a new Federal entity though during many of
these months MCC’s procurement function was staffed primarily with a series of
temporary contractor employees. MCC has provided contracting officer’s technical
representative (COTR) training to large numbers of its staff. This course includes
extensive coverage of the procurement function. In addition, MCC has hired a
consultant to assemble a manual of Procurement Operating Procedures to set forth
MCC’s official procurement policies. However, there are problem areas or areas for
suggested improvement that should be addressed.

MCC has not always adequately documented or justified its use of sole source
procurement procedures.           Also, three instances were noted of unauthorized
commitments or inappropriate actions taken by non-procurement officials that did not
appear to have been properly ratified or mitigated by MCC contracting officials. Finally,
MCC has not yet established a policy regarding the use of personal services contractors
and needs to acknowledge responsibility for confirming the work status of non-citizen
individuals it hires to work in the U.S.

Problem areas and areas for suggested improvement noted in the audit are further
discussed below.

Applicability of Federal Procurement
Regulations to MCC
 Summary: Millennium Challenge Corporation (MCC) officials believed there was some
 degree of flexibility in the applicability of Federal procurement regulations to MCC as
 stated by an internal MCC legal memo. This position had been widely disseminated to
 MCC staff although no second outside opinion had ever been obtained to confirm a
 special status for MCC under procurement regulations. However, the Federal
 Acquisition Regulation (FAR) specifically states that wholly owned Government
 corporations are subject to its requirements. By exempting itself from the FAR and
 other procurement regulations, MCC created an internal control environment over its
 procurement activities that could have serious long term implications.

An internal MCC legal memo dated December 2004 asserted that MCC was not bound
by the requirements of the Federal Acquisition Regulation (FAR), Competition in


                                                                                           3
Contracting Act (CICA), or the Small Business Act (SBA). This position had been
presented to MCC staff as MCC policy. Later, MCC advised us that it had retracted this
memo but still maintained the position that it may be justified in concluding that certain
acquisition-related statues did not apply to their procurements because of the flexibility in
its authorizing legislation. Furthermore, an MCC procurement training manual—that was
distributed and being used by MCC staff at the end of our audit fieldwork —asserted
that MCC was “not legally bound by the vast number of procurement laws that govern
executive agencies” but that “MCC has elected to follow the FAR where the FAR sets
forth sound business practices.”

This issue of the applicability of the FAR to MCC was raised in an earlier Office of
Inspector General (OIG) report2 with a recommendation that MCC seek a second
opinion from appropriate authorities on whether it is exempt from general statutory and
regulatory provisions governing Federal procurement. MCC indicated it would take this
recommendation “under advisement” but had not obtained an outside opinion. MCC
officials state that they had been following FAR requirements regardless of their
applicability though this was not the case in all instances. As discussed in the audit
finding below, MCC was specifically not following sections of FAR Parts 4 and 19.

Subsequent to the completion of our audit fieldwork, MCC advised us that it had
informed procurement staff shortly after the issuance our previous audit report that the
FAR applies to MCC’s domestic procurement activities and that MCC should conform its
domestic activities accordingly. Additionally, MCC advised us that subsequent to the
end of our audit fieldwork that it had corrected its procurement training manual that
previously contained a statement suggesting that complying with the FAR was not
required by MCC.

To ensure that all MCC staff has been adequately informed of the applicability of the
Federal Acquisition Regulations to MCC, we are making the following recommendation.

      Recommendation No. 1: We recommend that the Millennium Challenge
      Corporation (MCC) prepare a memorandum acknowledging applicability of
      Federal procurement laws and regulations to MCC domestic operations and
      distribute the memorandum to all MCC staff.



MCC Not In Compliance with
Small Business Act
    Summary: The Millennium Challenge Corporation (MCC) did not comply with the
    Small Business Act and Federal Acquisition Regulation (FAR) Part 19 that prescribe
    preference programs to provide procurement opportunities for small and small
    disadvantaged businesses. Specifically, MCC had not reserved any acquisitions
    valued between $2,500 to $100,000 to small businesses nor had it reserved or set
    aside any acquisitions for small disadvantaged firms--8(a) contractors--or any other
    class of small businesses. MCC officials believed MCC was exempt from the

2
  Review of Millennium Challenge Corporation’s Progress In Achieving Its Planned
Organizational Structure And Beginning Its Assistance Programs As Of February 28, 2005
(Report No. M-000-5-001-S issued March 31, 2005).


                                                                                           4
 requirements of the Small Business Act and FAR Part 19. As a result, MCC had not
 afforded the maximum practicable opportunity for businesses in the small and small
 disadvantaged business communities to participate as contractors to provide goods
 and services.

The Small Business Act of 1953, as amended, authorizes small and small
disadvantaged business preferential contracting programs to ensure that small business
concerns receive a fair share of Government contracts. The Act applies to all "Federal
agencies" as defined in Section 3(b) of the Act and this definition includes a wholly-
owned government corporation such as the MCC. The Act also states "Notwithstanding
the government-wide goal, each agency shall have an annual goal that presents, for that
agency, the maximum practical opportunity for small business concerns ..." The Small
Business Administration works with each agency to establish goals that both provide
small businesses the maximum opportunity to win contracts given that agency's
procurement needs.

The requirements of acquisition-related sections of the Small Business Act are contained
in FAR Part 19 entitled Small Business Programs. FAR 19 authorizes preference
programs to provide federal procurement opportunities to the small and small
disadvantaged business communities. FAR 19.201 states that heads of contracting
activities are responsible for effectively implementing the small business programs within
their activities and to take all reasonable action to increase participation in their activities'
contracting processes by these businesses. FAR 19.502-2 states that acquisition of
supplies or services valued between $2,500 to $100,000 are automatically reserved
exclusively for small business and shall be set aside for small business unless there is
not a reasonable expectation of obtaining offers from two or more responsible small
business concerns that are competitive in terms of market prices, quality, and delivery.
In addition, the contracting officer shall set aside any acquisition over $100,000 for small
business participation when there is a reasonable expectation that offers will be obtained
from at least two responsible small business concerns, and award will be made at fair
market prices.

At the time of the completion of our audit fieldwork, MCC officials believed that MCC was
not subject to the Small Business Act or FAR Part 19 Small Business Programs. An
internal MCC legal opinion prepared in December 2004 (which MCC later retracted)
stated that:

                "The 'character and necessity' language of the (Millennium
                Challenge) Act permits the MCC to prescribe the manner
                in which it will procure goods and services. This means
                that the MCC is not obligated to follow the general
                statutory and regulatory provisions governing Federal
                procurement, such as the Competition in Contracting Act,
                Small Business Act, and the Federal Acquisition
                Regulation. However, the MCC is still required to engage
                in sound business practices when it procures goods and
                services ..."

Subsequent to the end of our audit fieldwork, MCC has stated that it believes that it is
not exempt from the requirements of the Small Business Act and FAR Part 19.


                                                                                               5
Although MCC previously believed that it was exempt from the Act, MCC officials
pointed out that it made several awards to small businesses including 8(a) contractors.
In a May 2005 letter to a member of Congress, MCC reported that it had made awards in
excess of the overall Federal Government goal in each category of small business.

Although MCC has made awards to small and small disadvantaged businesses it is
incorrect to compare this with Federal Government procurement goals for these
businesses. These goals are for the entire Federal Government and many agencies
have much higher goals because of the nature of the goods and services they buy.
Without any MCC-specific goals, one cannot assess the adequacy of MCC’s awards to
small businesses. More importantly, these federal goals are based on contracts or
actual purchases whereas MCC’s data includes the full amount of several blanket
purchase agreements (BPAs)3—regardless of how much MCC had actually ordered
under the agreements. For instance, a BPA awarded to an 8(a) firm for $900,000 only
resulted in actual purchases of approximately $110,000. The bulk of the $1.1 million in
awards to 8(a) firms cited by MCC in its data was represented by this BPA.

In our opinion, MCC is subject to the Small Business Act and has not afforded the
maximum practicable opportunity for businesses in the small and small disadvantaged
business communities to participate as contractors to provide goods and services. The
presence of "character and necessity" language in MCC's enabling legislation has no
effect on the applicability of the Small Business Act on MCC. Regarding this, GAO's
Principles of Federal Appropriations Law states: "The applicability of procurement laws
and regulation to government corporations is fairly simple. They apply, for the most part,
to wholly owned government corporations." In addition, we have contacted staff in the
Office of Federal Procurement Policy, the Small Business Administration, and the
Federal Procurement Data Center and have found no support for MCC’s position that it
is not obligated to follow the requirements of the Small Business Act and FAR Part 19.

By not complying with the Small Business Act and FAR 19, MCC has not always given
small businesses the contract award opportunities reserved for small businesses. A
commitment by MCC to apply and follow the Act and FAR 19 when awarding future
contracts—and establishment of MCC-specific goals for small business procurement—
would result in greater participation in Federal contracts by these businesses.

The U.S. Department of Interior's National Business Center—contracted by MCC to
provide procurement assistance during MCC's first year of operation—prepared a
program for MCC's use in implementing a small business acquisition policy but MCC
declined to use it. Establishing annual procurement goals with the Small Business
Administration and implementing a small business acquisition policy would demonstrate
a commitment by MCC to complying with the U.S. Government's promotion of the use of
small businesses.

    Recommendation No. 2: We recommend that the Millennium Challenge
    Corporation prepare and implement a business and economic development
    program for its domestic procurements that provides consistent guidance and

3
  A blanket purchase agreement is a simplified method of filling anticipated repetitive needs for
supplies and services by establishing “charge accounts” with qualified sources of supply. It does
not state or imply any agreement to place future contracts or orders with the contractor.


                                                                                               6
   establishes internal guidelines for its contracting and program personnel to
   implement the laws and regulations concerning procurement preference
   programs.

   Recommendation No. 3: We recommend that the Millennium Challenge
   Corporation, through negotiation with the Small Business Administration,
   establish annual procurement preference goals.


Non-Compliance with Federal
Procurement Data System
 Summary: The Millennium Challenge Corporation (MCC) has not reported information
 on its acquisitions to the Federal Procurement Data System (FPDS) and has neither
 requested nor received dispensation to exclude itself from FPDS coverage. As a
 relatively new organization, MCC has not yet focused its attention on implementing
 this requirement. Without inclusion in the FPDS, the extent to which the various
 classes of small businesses are sharing in MCC's acquisition activity cannot be
 accurately assessed. Also, information on MCC's use of other than competitive
 procedures is not readily available for outside review.

Federal Acquisition Regulation (FAR) Subpart 4.6 prescribes uniform reporting
requirements for the FPDS. FAR 4.601 requires each executive agency to establish and
maintain a computer file containing unclassified records of all procurements exceeding
$25,000. General information required includes (1) date of the contract award, (2) the
contractor, (3) the property or services obtained, and (4) the cost of the procurement. In
addition, information on the reason for the use of other than competitive procedures
(such as sole source procurements) in these awards is required. Also, agencies shall be
able to access information on such items as awards to small disadvantaged businesses
and awards to businesses owned and controlled by women. All of this information is
transmitted to the FPDS which provides a comprehensive mechanism for assembling,
organizing, and presenting contract placement data for the Federal Government.

MCC has been in existence for approximately 18 months and has not yet developed a
system for reporting the required FPDS information. Currently, MCC has no plan or
timeline for implementing a system for reporting information on its acquisitions to the
FPDS. Until MCC's acquisition activities are included in the Federal Procurement Data
System, MCC is not in compliance with FAR Subpart 4.6. Among the functions or uses
of the FPDS is the tracking or monitoring by the Small Business Administration of an
agency's contracting with small businesses and set-asides and the use of other than
competitive procedures. As discussed in an earlier audit finding, MCC should be taking
steps to implement the Small Business Act and establish contracting goals for small
businesses and set asides.

   Recommendation No. 4: We recommend that the Millennium Challenge
   Corporation establish a plan, including implementation dates, for installing a
   contract information reporting system to provide information to the Federal
   Procurement Data System.




                                                                                        7
Inadequate Justifications for
Sole Source Procurements
    Summary: In several instances, the Millennium Challenge Corporation (MCC) used
    sole source awards to obtain goods and services. The justifications prepared for
    these sole source procurements were inadequate and overstated and the contract
    files were insufficiently documented as required by the Federal Acquisition Regulation
    to support the absence of competition. MCC officials believed the sole source awards
    were justified during MCC’s first months as a new organization. Inadequate and
    poorly documented justifications for sole source awards can undermine public
    confidence in MCC’s procurement system and can raise questions of its commitment
    to competition.

Various sections of the Federal Acquisition Regulation (FAR) incorporate the
requirements of the Competition in Contracting Act (41 U.S.C. 253). FAR 13.104 states
that the contracting officer must promote competition to the maximum extent practicable
to obtain supplies and services from the source whose offer is the most advantageous to
the Government, considering the administrative cost of the purchase. Also, the
contracting officer must not solicit offers based on personal preference and should
consider using solicitation of at least three sources to promote competition to the
maximum extent practicable. FAR 13.106-1(b)(1) states that for purchases not
exceeding the simplified acquisition threshold, contracting officers may solicit from one
source if the contracting officer determines that the circumstances of the contract action
deem only one source reasonably available (e.g., urgency). FAR 13.106-3 discusses file
documentation and retention requirements for simplified acquisition purchases including
explaining the absence of competition if only one source is solicited. FAR Part 10
prescribes policies and procedures for conducting market research to arrive at the most
suitable approach to acquiring supplies and services.

It is Federal Government policy to promote full and open competition in the acquisition
process as the use of competitive procedures lends itself to lower prices and conducting
Government business with integrity, fairness, and openness. In the majority of its
contract awards, MCC has followed FAR requirements for competition in selecting its
contractors and vendors for goods and services. In the first few months after its
inception, MCC made some purchases using other than full and open competition as it
was forced to quickly establish day-to-day operations with only a handful of staff and no
organizational infrastructure. However, we identified several instances in subsequent
months where MCC used sole source awards to obtain goods and services when it
should be significantly reducing this practice. The justifications for these sole source
procurements were inadequate or overstated and there was a lack of documentation to
support the absence of competition. These procurements included the following:

•     A large consulting firm was awarded a $300,000 blanket purchase agreement (BPA)
      in January 2005 to provide employee compensation and benefits consulting services.
      After identifying seven potential firms, MCC officials held meetings with three
      interested firms to discuss their capabilities and determined that the awardee was
      the only viable source willing and capable of completing a compensation study within
      the required time frame. A sole source procurement was justified under the
      simplified acquisition procedures of FAR Part 13 and the justification states that



                                                                                             8
    "delay in contract award for this requirement would cause serious, irreparable injury
    in that MCC would be unable to competently perform its foreign assistance mission".

MCC's contracting officer explained that this procurement made use of market research
as contained in FAR Part 10 to determine which sources were capable and available to
perform the work in MCC's limited time frame. However, the limited contract file
documentation does not support the conclusion that the other firms (a minority-owned
firm and a small firm) under consideration were either incapable or unable to complete a
study within MCC's time frame. We contacted one of these firms who indicated they
were available and believed their firm was capable of performing the work. In our
opinion, the intention of market research under FAR Part 10 is to identify potential
market sources for an agency's requirements and not to narrow the number of sources
and competition. In this case, market research was used to actually select a firm in lieu
of a formal open solicitation.

Other examples which show MCC’s use of sole source awards with inadequate or
overstated justifications or a lack of documentation to support the absence of
competition included the following:

•   A policy research organization was hired at a cost of $10,000 in February 2005 to
    provide consulting and writing services to assist in the design of briefing materials
    targeted to MCC's Board of Directors. The contract was justified as a sole source
    procurement because of "urgency" under the simplified acquisition procedures of
    FAR Part 13. The justification states that only one source was deemed reasonably
    available for the assignment which was to begin immediately and that "delay in
    contract award for this requirement would cause serious, irreparable injury in that
    MCC would be unable to competently perform its foreign assistance mission".

•   A small firm was hired at a cost of $14,850 in December 2004 to provide assistance
    in producing and printing MCC's 2004 annual report. The contract was justified as a
    sole source procurement because of "urgency" under the simplified acquisition
    procedures of FAR Part 13.

•   A meeting facilitator was hired at a cost of $10,000 in late December 2004 for a
    meeting to be held on January 4, 2005. The contract was justified as a sole source
    procurement because of "urgency" under the simplified acquisition procedures of
    FAR Part 13.

•   A large architecture firm was hired at a cost of $18,403 in March 2005 to assist with
    designing and choosing signage and artwork for MCC's new headquarters in
    Washington, D.C. The same firm had executed the interior layout and design of the
    building. The contract was justified as a sole source procurement because of
    "urgency" under the simplified acquisition procedures of FAR Part 13. The
    justification stated that a delay in contract award would "cause serious, irreparable
    injury in that MCC would not be able to represent itself to the national and
    international communities in a way that is crucial to creating public acceptance and
    support ..."

•   A Canadian citizen was hired at a cost of $12,000 (with an option for another
    $24,000) in a sole source procurement in February 2005. This contract to provide


                                                                                       9
   consulting services was justified as a sole source procurement because of "urgency"
   under the simplified acquisition procedures of FAR Part 13. The justification states
   that only one source was deemed reasonably available for the assignment.

Although each of these five procurements claims "urgency" as a justification for using
sole source, the "urgency" is due more to a lack of advance planning which the FAR
indicates is not a valid justification and can easily be viewed as an attempt to circumvent
the Government's preference for competition. Claims of serious injury to MCC's ability to
perform its mission if procurements are delayed—such as designing signs and choosing
artwork—are overstated. In addition, no documentation was provided to demonstrate
whether attempts were made to identify other sources or that the price paid was actually
competitive and no explanation was provided to show that the selection did not
represent a personal preference or how the particular contractor was identified and
selected.

Use of competitive procedures is a benchmark of Federal acquisition policy and any
acquisition where limitations are placed on full and open competitive procedures should
be fully explained, justified, and documented. Frequent and poorly documented use of
limited competition procedures—particularly the use of sole source procurements—can
raise questions concerning an organization's commitment to competition. MCC officials
should take steps to significantly reduce the use of sole source awards and to ensure
thorough documentation when sole source procedures are used.

   Recommendation No. 5: We recommend that the Millennium Challenge
   Corporation establish procurement policies and procedures that contain specific
   requirements for the use of sole source acquisitions including what elements
   must be contained in the sole source justification and in contract file
   documentation such as: (1) specific identification of how the contractor was
   chosen, (2) what attempts were made to find other sources and what other
   sources were contacted, and (3) identifying pricing information obtained from
   similar sources.

Inappropriate Actions By
Non-Procurement Officials
 Summary: In three instances, the Millennium Challenge Corporation’s (MCC’s) non-
 procurement personnel either did not follow procurement regulations or their actions
 created the appearance of partiality. These personnel were unfamiliar with restrictions
 in the procurement process, particularly before a contract is awarded by a contracting
 officer. These situations were not adequately addressed or mitigated as required by
 the Federal Acquisition Regulation (FAR). Questions of fairness or propriety by any
 employee in the awarding of contracts can compromise the public's trust in MCC's
 procurement activities.

FAR 3.101-1 states that "Government business shall be conducted in a manner above
reproach and, except as authorized by statute or regulation, with complete impartiality
and with preferential treatment for none ... The general rule is to avoid strictly any
conflict of interest or even the appearance of a conflict of interest in Government-
contractor relationships." FAR 15.201(f) states “After release of the solicitation, the
contracting officer must be the focal point of any exchange with potential offerors. When


                                                                                        10
specific information about a proposed acquisition that would be necessary for the
preparation of proposals is disclosed to one or more potential offerors, that information
must be made available to the public as soon as practicable, but no later than the next
general release of information, in order to avoid creating an unfair competitive
advantage.” FAR 9.505 states that "The exercise of common sense, good judgment,
and sound discretion is required in both the decision on whether a significant potential
conflict exists and, if it does, the development of an appropriate means for resolving it.”

FAR 1.602-3 describes an unauthorized commitment as an agreement that is not
binding solely because the Government representative who made it lacked the authority
to enter into that agreement on behalf of the Government. Such commitments need to
be ratified—or approved—by an official who has the authority to do so. Agencies are to
take positive action to preclude, to the maximum extent possible, the need for ratification
actions. FAR 1.602-3(c) states that the ratification should be exercised only when "The
contracting officer reviewing the unauthorized commitment determines the price to be
fair and reasonable.”

The FAR describes personnel in the technical, supply and procurement fields as all
being participants in the acquisition process. MCC’s non-procurement personnel have
been actively involved in various facets of the procurement process in order to expedite
the purchase of goods and services. Federal procurement regulations, however,
reserve certain functions for warranted contracting officers. Also, inexperience in
Federal procurement by non-procurement personnel can easily result in questions of
fairness in the procurement process. We identified the following instances involving
non-procurement personnel where procurement regulations were either not followed or
their actions created the appearance of partiality:

•   MCC issued an open solicitation for recruiting/staffing services with the intention of
    issuing multiple blanket purchase agreements (BPAs) for these services. During the
    solicitation period, a senior MCC official contacted a senior official of a potential
    contractor to suggest that the firm submit a bid and later met with officials of the firm
    reportedly to discuss general topics relating to MCC. Although the firm may not have
    received any specific information to afford it an advantage in preparing its bid, there
    is a clear appearance of possible partiality that, in our opinion, required mitigation.
    Instead, the same senior MCC official also participated as a member of the selection
    panel evaluating the proposals MCC received. The firm ultimately received one of
    the three BPAs awarded by MCC ($1 million ceiling for the first year and $500,000
    each for four option years). In our opinion, the appearance of possible preferential
    treatment taints this competition and the option years for this BPA should not be
    exercised. MCC’s contracting officer made a judgment call that the official’s
    intervention during the solicitation process did not preclude his participation on the
    selection panel. The OIG strongly disagrees.

•   An MCC senior official hired a consultant to help prepare and facilitate a
    management meeting to be held on January 4, 2005. The official reported the hiring
    to the contracting officer in an e-mail the evening before the consultant was to arrive
    in Washington and stated that a fee of $10,000 had already been agreed upon and
    requested help in how to "… document this contract.” Although the need to hire a
    facilitator may have been discussed with the contracting officer in the weeks
    preceding the contract, only the contracting officer has the authority to enter into
    such an agreement and negotiate and establish the price. This unauthorized


                                                                                          11
    commitment was never ratified as required by FAR 1.602-3. As discussed earlier in
    the report, there is no further documentation in the contract file to support any market
    research, explain how the facilitator was selected, or describe attempts to obtain
    price quotes from other facilitators. The contracting officer did not believe this
    constituted an unauthorized commitment because the need for the consultant had
    been discussed with procurement officials earlier and the contract was executed by
    the contracting officer in a timely manner. However, prior discussion has no bearing
    on whether or not this was an unauthorized commitment and a contract had already
    been formed before the Acquisitions Office took any action on it.

•   An MCC staff member created an unauthorized commitment by leasing a vehicle for
    the use of MCC's new CEO in May 2004 although the individual lacked the authority
    to enter into an agreement on behalf of the Government. Although market research
    was reportedly performed to get the best price, none of this research was
    documented. Three months later in August 2004, MCC procurement personnel
    obtained two additional price quotes in conjunction with ratifying this unauthorized
    commitment and one quote was 20 percent less than the lease price MCC had
    already paid. In spite of this, the lease was ratified. The contract file states that the
    lower price quotation could be ignored and the unauthorized commitment ratified
    because the leasing company could not deliver the vehicle on a timely basis. In our
    discussion with the leasing company officials, they stated they could have delivered
    any existing vehicle within 48 hours. More importantly, the price quote was obtained
    simply for purposes of ratifying the unauthorized commitment—three months after
    the vehicle was actually leased. An inability to promptly deliver at that time has no
    bearing on the validity of the price quotation.

In our opinion, the procurement problems cited above involving non-procurement
officials should be easier to prevent than addressed after-the-fact by procurement
officials. MCC has provided training to a large number of its employees for performing
the function of a contracting officer’s technical representative (COTR). This course is a
comprehensive course that covers many aspects of the procurement function but does
not specifically address restrictions on procurement activities before a contract is
awarded (such as unauthorized commitments) or during an open solicitation for contract
proposals. These issues should be incorporated into this course or similar training for
non-procurement personnel.

    Recommendation No. 6: We recommend that the Millennium Challenge
    Corporation establish clear written policies—to be incorporated into existing in-
    house training courses—that delineate what pre-award and solicitation activities
    personnel can engage in and what specific actions they must avoid.

    Recommendation No. 7: We recommend that the Millennium Challenge
    Corporation decline to exercise the option years for the staff recruitment blanket
    purchase agreement cited in the audit report.




                                                                                          12
MCC Needs a Policy on Personal
Services Contractors
    Summary: The Millennium Challenge Corporation (MCC) has no MCC-specific policy
    on the use of personal services contracts (PSCs) to obtain necessary services.
    Although there is no specific federal government requirement or criteria that mandates
    establishment of such a policy, authorization to award personal services contracts is
    the exception in the U.S. Government and a policy on how and when they will be used
    would be an indication that MCC has adequately considered the role of PSCs in
    MCC's operations.       Without an MCC-specific policy concerning PSCs, PSC
    compensation packages could have an adverse or inflationary effect on MCC’s overall
    compensation or recruitment policies. MCC is in the process of establishing its
    policies and procedures and should include among these a policy for the selection,
    hiring, and use of PSCs.

Federal Acquisition Regulation (FAR) 37.104 states that "Agencies shall not award
personal services contracts unless specifically authorized by statute to do so." Section
614 of the MCA Act gives MCC authority to "contract with individuals for personal
services."

Selected agencies of the U.S. Government--including USAID, the Department of State,
and the Overseas Private Investment Corporation (OPIC) in the international arena--
have the authority to award PSCs. Each of these agencies have established agency-
specific policies to govern and regulate their use of PSCs. Although MCC is clearly not
subject to the PSC policies of other agencies, it is instructive to note what types of
limitations these older agencies have put in place to control and regulate the use of
PSCs. These policies include the following:

•     Limiting the role and responsibility of PSCs by not allowing them to supervise direct-
      hire employees, make final decisions on personnel selection, serve as contracting
      officers or sign obligating documents, or make decisions involving planning, budget,
      programming and personnel selection;

•     Negotiating PSC salaries to consider both the market value of the position as well as
      the individual’s salary history;

•     Limiting, with some exceptions, PSC salaries to the Civil Service’s Executive Service
      6 (ES-6) level;

•     Requiring a security clearance or a preliminary clearance for all PSCs;

•     Providing a specified variety of benefits to PSCs such as annual and sick leave and
      pay supplements to serve as a retirement benefit; and

•     Specifying how to select the individuals to be awarded a PSC.

MCC has hired several PSCs in both a full-time and an intermittent status during its first
eighteen months of operation. Without a policy on PSCs, MCC has hired PSCs with
wages and benefits negotiated on an inconsistent basis with no restriction on the duties
they can perform and no limitation on how much they can be paid. A review of these

                                                                                         13
contracts disclosed the following items that could be addressed in a MCC-specific PSC
policy:

•     MCC's full-time PSC staff includes one managing director with a subordinate staff
      member that is a direct-hire employee;

•     Intermittent or temporary PSCs are not required to have security clearances;

•     Full-time PSCs are paid on an hourly basis though many intermittent or temporary
      PSCs are paid on a daily basis. In addition, full-time PSC contracts contain
      provisions and funding to allow compensation for all hours worked though direct hire
      employees receive only a straight salary.

•     The salaries of some intermittent PSCs were negotiated to include a large increase
      over their salary history to compensate for the omission of various personnel benefits
      while other intermittent PSCs did not receive the increase.

•     The salary of some intermittent PSCs exceeded the ES-6 level and in one case
      involving a short-term consultancy, the PSC's salary was established at a rate
      approximately three times that rate.

•     Contract files for PSCs do not consistently show how the contractor was chosen or
      what type of competitive process was used.

MCC has not yet established all of the policies and procedures it will eventually have
although it has recently hired a consultant to compile a procurement procedures manual
for use by MCC's acquisitions and non-acquisitions staff. With over a year's experience
in contracting for personal services and as it finalizes its staffing and compensation
policies for its employees, MCC is in a position to establish a policy for the selection,
hiring, and use of PSCs. Without an MCC-specific policy concerning PSCs, PSC
compensation packages could have an adverse or inflationary effect on MCC's overall
compensation or recruitment policies.

      Recommendation No. 8: We recommend that the Millennium Challenge
      Corporation establish a policy covering contracting for personal services
      contracts (PSCs) that identifies any limitations on a PSC’s duties, salaries
      (including negotiation and computation) and benefits.


No Assurance Non-Citizens Eligible
to Work In the U.S.
    Summary: The Millennium Challenge Corporation (MCC) hired a non-resident
    Canadian citizen as a consultant to work in Washington without ensuring the individual
    had legal status to work in the U.S. MCC legal and contracting officials stated it was
    their opinion that Canadians are eligible to receive U.S. Government contract awards
    and that they had no obligation to ensure proper entry status because the individual
    was hired as a consultant and not as a personal services contractor. However,
    without documentation of the visa status or entry classification of any non-resident,
    non-citizen it hires to work in the U.S., MCC has no assurance that it is in compliance


                                                                                         14
 with U.S. law and requirements to determine contractor eligibility to receive a contract.

Federal Acquisition Regulation (FAR) Part 9 prescribes policies, standards, and
procedures pertaining to prospective contractors' responsibility and FAR Subpart 9.100
applies to all proposed contracts with any prospective contractor that is located (1) in the
U.S., its possessions, or Puerto Rico; or (2) elsewhere, unless application of the subpart
would be inconsistent with the laws or customs where the contractor is located. FAR
9.103 states (a) purchases shall be made from, and contracts shall be awarded to,
responsible prospective contractors only, and (b) no purchase or award shall be made
unless the contracting officer makes an affirmative determination of responsibility. In the
absence of information clearly indicating that the prospective contractor is responsible,
the contracting officer shall make a determination of nonresponsibility. FAR 9.104-1 (g)
states that to be determined responsible, a prospective contractor must be otherwise
qualified and eligible to receive an award under applicable laws and regulations. U.S.
law requires non-resident, non-U.S. citizens to obtain specific work visas or entry
classifications before being able to work in the U.S. The North American Free Trade
Agreement (NAFTA) requires certain Canadian professionals to obtain a specific entry
classification before commencing work in the U.S.

Although MCC provided a consultant with a letter to be used in obtaining the required
entry classification for a Canadian professional to work in the U.S., MCC's contract file
and other records were not documented to show that MCC officials ever ascertained that
the consultant actually obtained the required status upon entering the U.S.       MCC
officials asserted that this was not MCC’s responsibility as the contract was not a
personal services contract.

In our opinion, the type of contract an individual is hired under has no bearing on the
obligation U.S. employers (particularly entities of the U.S. Government) have to ensure
the proper work status of non-citizens they employ. Although institutional contractors
may be relied on to check the status of their employees, MCC itself must ensure each
individual it hires to work in the U.S. has the proper work visa or entry classification
before commencing work. MCC has no policy or procedures to require documentation
of the work status of non-resident, non-U.S. citizens it employs to work in the U.S.

   Recommendation No. 9: We recommend that the Millennium Challenge
   Corporation (MCC) develop policy and procedures to require documentation of
   the work status of non-citizen individuals to perform work for MCC in the United
   States.




                                                                                         15
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, MCC management provided written comments that are
included in their entirety as Appendix II. In addition, we incorporated certain minor
clarifications into the report that were suggested by MCC. Overall, MCC management
concurred with all nine recommendations included in the report and are planning to take
corrective action to address those recommendations. MCC also provided evidence
showing that final action has been taken to address one of the nine recommendations.
As a result, a management decision has been reached for eight of the nine
recommendations and final action has been taken on one recommendation.

In response to Recommendation No. 1, MCC agreed to issue a memorandum to its staff
emphasizing that the Federal Acquisition Regulation applies to all of MCC domestic
procurement activities as a matter of law, not by choice. A management decision has
been reached for this recommendation and MCC anticipates corrective action will be
completed by October 2005.

In response to Recommendation No. 2, MCC agreed to prepare and implement a
business and economic development program for its domestic procurements that meets
Small Business Administration requirements and implements laws and regulations
concerning procurement preference programs. A management decision has been
reached for this recommendation and MCC anticipates corrective action will be
completed by January 2006.

In response to Recommendation No. 3, MCC agreed to contact the Small Business
Administration (SBA) to determine the applicability of annual procurement preference
goals for MCC and will establish appropriate goals based on feedback from the SBA. A
management decision has been reached for this recommendation and MCC anticipates
corrective action will be completed by November 2005.

In response to Recommendation No. 4, MCC pointed out that it does have a system for
compiling the type of information required by the FPDS but has not yet reported the
information to the FPDS because of limited personnel resources. MCC agreed to begin
transmission of procurement data to the Federal Procurement Data System (FPDS)
beginning in October 2005. A management decision has been reached for this
recommendation.

In response to Recommendation No. 5, MCC agreed with the recommendation and
stated that it supports the notion that advance procurement planning should be
completed and that a formal advance procurement planning program was initiated in
June 2005.     MCC also stated that it had already established the recommended
procurement policies and procedures that contain specific requirements for the use of
sole source acquisitions including what elements must be contained in the justification
and in contract file documentation. Additionally, MCC noted that the six cited
procurements are relatively small and were awarded using the simplified acquisition
procedures of FAR Part 13 and had been in operation for approximately one year before


                                                                                    16
these awards were made. A management decision has been reached for this
recommendation.

In response to Recommendation No. 6, MCC agreed with the recommendation and
stated that it is taking steps to develop the policies and procedures to continue to teach
and train non-procurement personnel issues on pre-award and solicitation issues. MCC
also amended its contracting officer’s technical representative (COTR) handbook to
include discussion of restrictions on contacts with prospective contractors and making
unauthorized commitments. Based on the supporting documentation provided, we
consider that MCC has taken final action on this recommendation.

In response to Recommendation No. 7, MCC agreed with the recommendation and
stated that it will not renew the blanket purchase agreement with the firm in question. A
management decision has been reached for this recommendation.

In response to Recommendation No. 8, MCC agreed to establish a policy on contracting
for personal services contracts. A management decision has been reached for this
recommendation and MCC anticipates corrective action will be completed by November
2005.

In response to Recommendation No. 9, MCC agreed to develop policy and procedures
to require documentation of the work status of non-citizen individuals to work for MCC in
the U.S. A management decision has been reached for this recommendation and MCC
anticipates corrective action will be completed by November 2005.




                                                                                       17
                                                                           APPENDIX I


SCOPE AND METHODOLOGY
Scope
The Assistant Inspector General for the Millennium Challenge Corporation audited
MCC’s contract award process in accordance with generally accepted government
auditing standards to determine whether the Millennium Challenge Corporation complied
with applicable laws and regulations in awarding its contracts. In particular, the audit
focused on whether MCC met federal requirements for competition, properly selected
the sources of its supplies and services, and adequately documented its contract
awards.

A judgmental sample of 72 contracts were reviewed out of approximately 204 contracts
that had been awarded from MCC’s inception in January 2004 until May 10, 2005.
Contracts chosen for review included a cross section of the different types of contract
awards made by MCC with an emphasis on sole source procurements and contracts
awarded in the latter half of MCC’s existence.     Audit coverage included contracts
awarded in the U.S. as part of MCC’s due diligence efforts to support development of
MCC’s compacts (agreements) with foreign governments. Audit coverage did not
extend to MCC’s compacts or to purchases made overseas to implement and support
MCC’s overseas assistance activities.

The audit included tests and review of selected internal controls integral to the contract
function including (1) proper authorizations and approval, (2) adequate obligation of
funding for contracts, (3) documentation of key elements of the contract process, and (4)
controls over the use of government purchase cards.

Audit fieldwork was performed at MCC’s former headquarters in Arlington, Virginia and
current headquarters in Washington, D.C. from April 20, 2005 through July 14, 2005.


Methodology
To answer the audit objective, we reviewed documentation in MCC’s contract files and
reviewed federal procurement regulations including the Federal Acquisition Regulation,
the Competition in Contracting Act, and the Small Business Act. In addition to
conducting interviews with MCC officials, we also interviewed officials or staff of the
National Business Center, the Small Business Administration, the Office of Federal
Procurement Policy, and the Federal Procurement Data Center. We also contacted and
interviewed staff from a small number of MCC’s contractors or prospective contractors
and interviewed officials of the American Council of Engineering Companies. Selected
procurement-related policies and procedures used by USAID and other federal entities
were also reviewed.




                                                                                       18
                                                                                  APPENDIX I


MANAGEMENT COMMENTS
              Millennium Challenge Corporation
              Reducing Poverty Through Growth


October 4, 2005

John Phee
Assistant Inspector General
U.S. Agency for International Development
AIG/MCC-Room 8.09.63, RRB
1300 Pennsylvania Avenue, NW
Washington, DC 20523

    Re:     Audit of the Millennium Challenge Corporation's Contract Award Process
           (Report No. M-000-05-003-P)

Dear Mr. Phee:

Please find herewith the Millennium Challenge Corporation's (MCC) comments on each of the
recommendations identified in draft report No. M-000-05-003-P.

Recommendation No.1: We recommend that the Millennium. Challenge Corporation
prepare a memorandum acknowledging applicability of Federal procurement laws and
regulations to MCC domestic operations and distribute the memorandum to all MCC staff.

Recommendation No. 1, MCC Response: MCC management will issue a memorandum to staff
re-emphasizing that the Federal Acquisition Regulation (FAR) applies to all of MCC’s domestic
procurement activities as a matter of law, not by choice, in light of the apparent misperception
among some MCC staff that MCC is following the FAR voluntarily but is not legally required to do
so. MCC originally addressed this issue in response to a finding in the IG’s Audit of MCC’s
Progress In Achieving Its Planned Organizational Structure and Beginning Its Assistance
Programs, issued on March 31, 2005. In that report, the IG recommended that MCC seek a
second opinion on an internal December 2004 memorandum issued by an MCC attorney which
questioned the applicability of the FAR due to the “character and necessity” language contained
in Section 614(a)(4) of the Millennium Challenge Act. MCC management indicated at that time
that it would take this recommendation “under advisement” and indicated that, notwithstanding
any potential argument to the contrary, it intended to continue following the requirements of the
FAR, as it had in the past. The IG considered that response to be final action on that
recommendation. Immediately after the IG issued the March 31 audit report – and prior to the
beginning of the audit period covered by this Report -- MCC’s Office of General Counsel advised
MCC’s Vice President for Administration and Finance (Acting) and the Director of Procurement
that the FAR applied to all of MCC’s domestic procurement activities (as a matter of law, not by
choice), and that they should not rely on the December 2004 memo as justification to deviate
from FAR procedures. Also, in early April 2004 (prior to the audit period of the current Report)
the MCC attorney who authored the December 2004 memorandum regarding FAR applicability to
MCC informed the Office of Management and Budget, the General Accountability Office and the
IG that he withdrew the opinion and that he would inform them of any other opinion that
questioned the applicability of any federal procurement regulations. No other opinions have been




                                                                                              19
                                                                                     APPENDIX I
issued on this matter and the position of MCC remains that it is subject to the FAR.

Recommendation No.2: We recommend that the Millennium Challenge Corporation
prepare and implement a business and economic development program for its domestic
procurements that provides consistent guidance and establishes internal guidelines for its
contracting and program personnel to implement the laws and regulations concerning
procurement preference programs.

Recommendation No.2, MCC Response: The MCC will prepare and implement a business and
economic development program for its domestic procurements that meets SBA requirements and
provides consistent guidance for its contracting and program personnel to implement the laws
and regulations concerning procurement preference programs. Completion date: January 2006.

Recommendation No.3: We recommend that the Millennium Challenge Corporation,
through negotiation with the Small Business Administration, establish annual
procurement preference goals.

Recommendation No.3, MCC Response: The MCC will contact the SBA to determine the
applicability of annual procurement preference goals for MCC. Based upon feedback from the
SBA, appropriate procurement preference goals will be established. Completion date: November
2005.

Recommendation No.4: We recommend that the Millennium Challenge Corporation
establish a plan, including implementation dates, for installing a contract information
reporting system to provide information to the Federal Procurement Data System.

Recommendation No.4, MCC Response: The OIG report states" MCC has been in existence
for approximately 18 months and has not yet developed a system for compiling and reporting the
required FPDS information."

    The MCC does not believe that the OIG's finding is totally accurate, the MCC implemented a
    system for compiling the type of information required by FPDS, and in fact, has compiled the
    information for all contract actions awarded from the beginning of MCC procurement
    operations. The MCC has not, however, coded the information onto FPDS forms and
    transmitted it to FPDS because of limited personnel resources. The MCC will begin
    transmission of data to FPDS beginning in October 2005.

Recommendation No.5: We recommend that the Millennium Challenge Corporation
establish procurement policies and procedures that contain specific requirements for the
use of sole source acquisitions including what elements must be contained in the sole
source justification and in contract file documentation such as: (1) specific identification
of how the contractor was chosen, (2) what attempts were made to find other sources and
what other sources were contacted, and (3) identifying pricing information obtained from
similar sources.

Recommendation No. 5, MCC Response: MCC agrees with the recommendation. MCC
supports the notion that advance procurement planning should be completed; and, in fact, MCC
initiated a formal advance procurement planning program in June 2005. In addition, MCC has
established procurement policies and procedures that contain specific requirements for the use of
sole source acquisitions including what elements must be contained in the sole source
justification and in the contract file documentation, such as: (1) specific identification of how the
contractor was chosen, (2) what attempts were made to find other sources and what other
sources were contacted, and (3) a price reasonableness justification. The OIG report cited six (6)
procurements that were awarded on the basis of what the OIG considers questionable “urgency”
justifications. Each of the cited procurements was awarded using simplified acquisition
procedures of FAR Part 13 during the period February 2004 and March 2005. The contract



                                                                                                  20
                                                                                  APPENDIX I
award value of the cited procurement is:

    •   $10K
    •   $10K
    •   $12K
    •   $15K
    •   $18K
    •   $78K


It should be noted that MCC has been in operation as an Agency for approximately 1 year prior to
the award of the small dollars procurements cited.

Recommendation No. 6: We recommend that the Millennium Challenge Corporation
establish clear written policies-to be incorporated into existing in-house training courses-
that delineate what pre-award and solicitation activities personnel can engage in and what
specific actions they must avoid.

Recommendation No. 6, MCC Response: MCC agrees with the recommendation, and is taking
steps to develop the policies and procedures to not only continue teaching the issues in its COTR
training course, but also to train non-procurement personnel on these issues.

Recommendation No.7: We recommend that the Millennium Challenge Corporation decline
to exercise the option years for the staff recruitment blanket purchase agreement cited in
the audit report.

Recommendation No. 7, MCC Response: After further review of the facts surrounding this
issue, MCC agrees with the recommendation and will not renew the Blanket Purchase Agreement
with the firm in question.

Recommendation No.8: We recommend that the Millennium Challenge Corporation
establish a policy covering contracting for personal services contracts (PSCs) that
identifies any limitations on a PSC's duties, salaries (including negotiation and
computation) and benefits.

Recommendation No.8, MCC Response: The MCC will establish a policy covering the unique
MCC environment for contracting for personal services contracts (PSCs) that identifies any
limitations on a PSC's duties, salaries (including negotiation and computation) and benefits.
Completion date: November 2005.

Recommendation No.9: We recommend that the Millennium Challenge Corporation
develop policy and procedures to require documentation of the work status of non-citizen
individuals to perform work for MCC in the United States.

Recommendation No.9, MCC Response: The MCC will develop policy and procedures to
require documentation of the work status of non-citizen individuals to perform work for MCC in the
United States. Completion date: November 2005.


Sincerely,

  /s/

Charles O. Sethness




                                                                                               21
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
